No. 19-1186

 

IN THE

Supreme Court of the United States

JOSHUA BAKER, IN HIS OFFICIAL CAPACITY AS DIRECTOR,
SOUTH CAROLINA DEPARTMENT OF HEALTH AND
HUMAN SERVICES, PETITIONER

v.

JULIE EDWARDS, ON HER BEHALF AND ON BEHALF OF
ALL OTHERS SIMILARLY SITUATED, ET AL., RESPONDENTS

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

BRIEF FOR 137 MEMBERS OF CONGRESS
AS AMICI CURIAE IN SUPPORT
OF PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,684 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on April 29, 2020.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
